Executive Report



Return to the USDOJ/OIG Home Page



Community Policing to Combat Domestic Violence Grant Administered by the Chicago Housing Authority
GR-50-00-004November 23, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the Community Policing to Combat Domestic Violence Grant awarded by the Office of Justice Programs (OJP), U.S. Department of Justice, to the Chicago Housing Authority (CHA) located in Chicago, Illinois.  CHA was awarded $200,000 for the period 
June 1, 1996 through May 31, 1997, to reduce domestic violence throughout CHA developments through increased awareness and training of appropriate staff.  The grant was later extended to June 30, 1998.

In brief, our audit revealed that CHA's management of the grant was generally adequate.  However, we questioned costs of $6,991 for salaries, fringe benefits, hotel bills, and contractor payments because they were either unsupported or unallowable.  In addition, CHA failed to submit accurate and timely grant reports.  CHA officials attributed some of the problems to the high turnover in personnel.
 
The details of our audit are contained in the Findings and Recommendations section of this report.  Our audit scope and methodology are described in Appendix I.